                                 INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202-4704




DoD Inspector General
Report                                                                 FEB 28 2007


Report No. D-2007-064
 (Project No. D2006-DOOOLQ-0165.000)

SUBJECT:       Implementation of the Commanders' Emergency
               Response Program in Afghanistan

Objective(s). The overall objectives of the audit were to evaluate management's
administration of the Commanders' Emergency Response Program (CERP), and
determine whether the internal controls set up for the CERP in the Afghanistan area of
responsibility protect DoD assets.

Scope and Methodology. We conducted audit work from April through October 2006
with fieldwork accomplished in Afghanistan. Audit work included reviewing the project
and contractor selection processes, fund controls, cash controls, and selected CERP
project files from components of the Combined Forces Command - Afghanistan. We
included completed projects as well as projects still in progress from FY 2005 and
FY 2006 in our review. We conducted interviews with CERP administrators and staff
from task forces and provincial reconstruction teams from Combined Joint Task
Force-76 , Political Military Integration, and Task Force Phoenix. We visited sites of
20 judgmentally selected CERP projects totaling $3.9 million of the $351 million
allocated for FY 2005 and FY 2006. We selected those sites from command suggestions
because we could not visit our original choice of sites because of the command's
logistical and security concerns. In addition, we judgmentally selected and visited 16 of
70 pay agents responsible for $3.7 million of the $4.9 million under the control of the pay
agents and conducted site visits to all five finance offices in Afghanistan.

The Combined Forces Command - Afghanistan deactivated in January 2007. The U.S.
Army Central now administers the CERP in Afghanistan. Therefore, we are sending the
recommendations to the Commanding General, Third Army/U.S. Army Central.

Results-In-Brief and Effect. The Commander, Combined Forces Command-
Afghanistan established controls over the CERP; however, they were not effective in all
cases. As a result:
    • Of the 16 pay agents, 15 did not have appropriate physical security for storing
       cash, the sixteenth pay agent did not hold cash because she is collocated with a
       finance office. Of the 16 pay agents, 2 inappropriately disbursed cash.
Date: February 28, 2007
Report No.: D-2007-0064
 (Proj ect No.: D2006-DOOOLQ-0 165.000)


    •   Some of the projects we reviewed did not fully achieve the intent of the CERP.
    •   Weaknesses in administrative processes led to inconsistent program
        implementation, unnecessary requirements, and insufficient documentation.

Management Comments. We received comments from the Chief of Staff, U.S. Central
Command, who stated that the U.S. Central Command plays a limited role in the
administration of the CERP, and therefore, he had no comments on the report as written.
The Director, Civil Military Affairs, Combined Forces Command - Afghanistan provided
comments! to clarify some of the details in the report. However, he did not respond to
the individual recommendations. Also, in January 2007, the Combined Forces Command
- Afghanistan was deactivated, therefore, we have redirected all recommendations to the
Commanding General, Third Army/U.S. Army Central as they advised. We request that
the Commanding General provide comments on the findings and recommendations in
this report by March 30, 2007.

Lastly, the Acting Deputy Chief Financial Officer forwarded a response from the Under
Secretary of Defense (Comptroller) nonconcurring with the recommendation to revise
DoD Regulation 7000.14-R, "DoD Financial Management Regulation." After further
review, we agreed with the USD (Comptroller) and revised and redirected the
recommendation to the Commanding General, Third Army/U.S. Army Central. See
Attachment 1 for the complete text of all comments.




'Although comments were dated November 28,2006, the DoD OIG did not receive them until January 19,
2007.


                                                                                                 2
Date: February 28, 2007
Report No.: D-2007-0064
 (Project No.: D2006-DOOOLQ-0 165.000)


Results and Effect on Operations
The Combined Forces Command - Afghanistan (CFC-A) Commander established controls over
the CERP; however the controls were not effective in all cases. As a result:

   •   Weaknesses existed in controls over cash held by 15 of the 16 pay agents that we visited.
       Specifically, 15 of the 16 pay agents that we visited did not use appropriate containers for
       storing cash because the command did not provide adequate safes. The sixteenth pay
       agent did not store cash because she was collocated with a finance office. As a result,
       physical security did not comply with DoD Regulation 7000.14-R, "DoD Financial
       Management Regulation," volume 5, chapter 3 "Keeping and Safeguarding Public
       Funds," August 1999, or the Combined Joint Task Force-76 (CJTF-76) Standard
       Operating Procedure (SOP). Additionally, 2 of the 16 pay agents made six payments
       using exchange rates that differed from the exchange rate in effect at the time of the cash
       advance. Using a different exchange rate caused one pay agent to have cash for which he
       was not accountable and the other pay agent to be responsible for cash he did not have.
       Separately, one pay agent did not maintain adequate supporting documentation to
       perform cash reconciliation. These weaknesses occurred because training for pay agents
       was inadequate.

   •   Project approval did not fully achieve the intent of the CERP. Specifically, one of the
       projects was approved prematurely. In addition, six projects were approved despite
       belonging to the prohibited categories prescribed by DoD Regulation 7000.14-R, "DoD
       Financial Management Regulation," volume 12, chapter 27, "Commanders' Emergency
       Response Program (CERP)," September 2005. Finally, the command approved projects
       that did not meet the intent of the DoD Regulation 7000.l4-R, "DoD Financial
       Management Regulation," which was to respond to urgent humanitarian relief and
       reconstruction requirements that would immediately assist the indigenous population. As
       a result, the CFC-A inappropriately used CERP funds totaling approximately
       $1.5 million.

   •   We identified weaknesses in controls over administrative processes. Specifically:

           -   A standard quality assurance program did not exist in the components
               administering CERP because management did not establish and enforce a
               program for all units. As a result, quality assurance for the CERP was
               inconsistently implemented and insufficiently documented.

           -   The CJTF-76 SOP was not in accordance with the CERP fragmentary order
               because it had not been synchronized with the order. As a result, additional
               requirements were issued to CERP administrators.




                                                                                                 3
Date: Februa ry 28, 2007
Report No.: D-2007-0064
 (Project No.: D2006-DOOOLQ-0165.000)

           -   The CERP fragmentary order and the CJTF-76 SOP require commanders to
               coordinate proj ects with appropriate agencies; however, those policies do not
               require documentation to confirm the coordination. As a result, there is no
               evidence that the required project coordination was completed.

The recommendations in this report, if implemented, will improve the administration of the
CERP program.


Background

The CERP was designed to enable local commanders in Iraq and Afghanistan to respond to
urgent humanitarian relief and construction requirements within their area of responsibility by
carrying out programs that would immediately assist the indigeno us population. The CERP was
initiated in Afghanistan in January 2004. During FYs 2005 and 2006, the CERP in Afghanistan
was funded, obligated, and disbursed as shown in the following table.

                                           FY 2005
                 Allocated                                  $136,000,000.00
                 Obligated (as of September 30,2005)        $136,000,000.00
                 Disbursed (as of September 30,2005)        $ 63,429,960.16
                                           FY 2006
                 Allocated                                  $215,000,000.00
                 Obligated (as of August 31, 2006)          $167,701,241.03
                 Disbursed (as of August 31,2006)           $ 35,87 1,330.43

Audit Results

Cash Controls. We examined internal controls over CERP cash at all five finance offices in
Afghanistan and visited 16 of70 pay agents who were responsible for $3.7 of the $4.9 million
cash outstanding during the fieldwork. The following conditions require command attention.

   •   Cash held by 15 of the 16 pay agents that we visited was not safeguarded in accordance
       with DoD Regulation 7000.14-R, "DoD Financial Management Regulation," volume 5,
       chapter 3, "Keeping and Safeguarding Public Funds, " August 1999, or the CJTF -76 SOP.
       Specifically, we found that none of the 15 pay agents who stored cash did so in approved
       safes.

   •   DoD Regulation 7000.14-R "DoD Financial Management Regulation," volume 5,
       chapter 3, "Keeping and Safeguarding Public Funds," August 1999, requires any
       outstanding DD 1081 "Statement of Agent Officer's Account" to be cleared at least once
       each month. Travel difficulties prevented pay agents from consistently clearing
       outstanding DD 1081s each month.



                                                                                                4
Date: Februa ry 28, 2007
Report No.: D-2007-0064
 (Project No.: D2006-DOOOLQ-0165.000)



   •   When making payments , two of the 16 pay agents used an exchange rate that differed
       from the rate in which the cash was drawn from the finance office . This practice created
       overages of21,496 Afghani ($427.35 using an exchange rate of50.3 Afghani per $1) for
       one pay agent and a shortage of 13,750 Afghani ($273.36 using an exchange rate of
       50.3 Afghani per $1) for the other pay agent.

   •   Cash on hand for one of the 16 pay agents did not balance with the finance office's report
       of cash outstanding for that pay agent. Specifically, the pay agent was liable to the
       finance office for $30,000 and 249,150 Afghani ($4,953.28 using an exchange rate of
       50.3 Afghani per $1) that he did not have on hand at the time of the cash count. At our
       request, the pay agent cleared his account with the finance office on September 30, 2006.
       The clearing confirmed that the difference of cash on hand versus the finance office 's
       report of cash outstanding was caused by documentation errors rather than a physical loss
       of cash.

Program Intent. One project we reviewed was approved prematurely. In this project, CFC-A
purchased four generators and related equipment costing $1 million in CERP funds for an
industrial park. Together, the generators had the capacity to provide electricity to 34 buildings.
During the audit, we observed that the generators would be functional on approximately May 4,
2006; however, only one building was under construction in the industrial park. According to
the unit Project Purchasing Officer, the construction of buildings in the industrial park is not a
CERP project and there is no guarantee that more buildings will be constructed. As a result ,
purchasing all four generators initially was unnecessary based on the current need.

Six of the reviewed projects costing $476,400 were approved even though the projects met the
criteria for a prohibited project according to DoD Regulation 7000.14-R, "DoD Financial
Management Regulation," volume 12, chapter 27, "Commanders' Emergency Response Program
(CERP)," September 2005 . The projects included:

   •   Sorkh Parsa District Center ($240,000). According to the unit Project Purchasing
       Officer, the building will house district officials, a court, and the Afghan National Police.
       The project is a prohibited use of funds because it is funding an operating cost of Afghan
       security forces.

   •   Supplies for Earthquake Relief to Pakistan ($100,00 0). The project included replenishing
       supplies sent for the Pakistan relief effort. This project is a prohibited use of funds
       because the CERP funds are appropriated for Afghanistan.

   •   Khowst Provincial Coordination Center ($95,000). The project was to create a
       permanent structure for a joint operation and emergency response cell with
       representatives from the Afghan National Army, Afghan Nati onal Police, National
       Directorate for Security, and the United Natio ns to implement a more timely exchange of



                                                                                                     5
Date: Februa ry 28, 2007
Report No.: D-2007-0064
 (Project No.: D2006-DOOOLQ-0165.000)

       information and intelligence among all representatives. The project was a prohibited use
       of funds because it provides goods to national armies, police , and other security forces.

   •   Repair of Afghanistan National Police Vehicles ($10,000). The project was to provide
       funding to enhance the mechanical and repair capabilities of the Afghan National Police
       vehicles. The project was a prohibited use of CERP funds because it provided services to
       the police.

   •   Oruzgan Afghan National Police Building Prep ($9,600). The project was to clean up
       and prepare the site for the future Afghan National Police Station. The project was a
       prohibited use of CERP funds because it provided services to the police.

   •   Emergency Medical Technician Course ($21,800). The course was offered only to the
       Afghanistan National Army and Afghanistan National Police. The project was prohibited
       because it provided services to the national army and police.

In addition, projects were completed that did not appear to comply with DoD
Regulation 7000.14-R, "DoD Financial Management Regulation." For example:

   •   A guesthouse was constructed and furnished for visiting faculty and guests of the
       Ministry of Higher Education. The project disbursed $82,915. The guesthouse was
       furnished with solid wood cabinetry, marble countertops, and new solid wood furniture.
       The intended purpose of the project was not to respond to urgent humanitarian relief for
       the immediate assistance of the indigenous population. Instead, it was to upgrade an
       existing structure. The desired impact of the project, as stated in the project nomination
       form, was to provide "the Ministry of Higher Education with a first class facility to lodge
       official guests ... equivalent to a nice western style hotel." Such requirements and
       reasoning did not appear to meet the program's intended purpose.

   •   A computer, printer, and printer supplies were purchased for the Governor of Kapisa at a
       cost of$21,000. This purchase was excessive and did not benefit the largest number of
       Afghans possible as required by the CFC-A Fragmentary Order 385, "COMCFC-A
       FY 06 CERP Guidance and Policy," October 19,2005.

Nonstandard Quality Assurance and Quality Control. We concluded that the components
administering the CERP had no standard quality assurance or quality control program because
neither the CERP fragmentary order nor the CJTF-76 SOP required the standard quality
assurance procedures to be issued. The lack of guidance led to inconsistent implementation and
insufficient documentation of quality control procedures.

Many of the units authorized to expend CERP funds developed unit-level procedures for
verifying project quality. As a result, quality assurance and quality control checks were not




                                                                                                    6
Date: February 28, 2007
Report No.: D-2007-0064
 (Project No.: D2006-DOOOLQ-0165.000)

adequately documented or uniform throughout the CFC-A area of responsibility. Examples of
three different quality assurance procedures used follow.

   •   One component, Task Force Spartan, documented site visits in its patrol debrief report,
       but its analysis was inadequate to determine the quality assurance procedures used during
       the visit;

   •   The Bagram Provincial Reconstruction Team completed formal writeups of quality
       assurance reviews; however, the reviews were completed by engineers assigned to the
       team from the Republic of Korea, and the notes from the site visits were in Korean. As
       such, control and evaluation procedures completed at the project sites are unverifiab le,
       although the documentation contains pictures showing the progress made ; and

   •   The Qalat Provincial Reconstruction Team conducted weekly site visits to construction
       projects; however, the Provincial Reconstruction Teams did not complete documentation
       describing the visits to assess the work performed.

Standard Operating Procedures. The CJTF-76 SOP contained guidance that was not in
accordance with the CERP fragmentary order because the command did not synchronize the
SOP with the CERP fragmentary order. As a result, the CJTF-76 issued additio nal requirements
to CERP administrators. The additional requirements included:

   •   Completing a terms-of-use contract with project recipients before transferring the
       property to the local recipient. The terms-of-use contract was not a requirement in the
       CERP fragmentary order and its inclusion as a requirement created additional work
       without additional benefit. The Government would establish a terms-o f-use contract in
       an attempt to hold a project recipient responsible for properly using and maintaining the
       project or risk losing future CERP funding. However, there is no requirement for the
       Government to provide additional projects under any condition.

   •   Completing a memorandum for the record to indicate approval for a project; however, no
       such requirement exists in the CERP fragmentary order. Furthermore, all projects
       required approval using a project nomination form signed by the appropriate approving
       authority.

Documentation of Project Coordination. The CERP fragmentary order and the CJTF-76 SOP
require commanders to coordinate projects with appropriate agencies for constructing or
refurbishing medical facilities, educational facilities, roads and bridges, multi -story building
construction, and structural repair projects. However, the CERP fragmentary order and the
CJTF-76 SOP do not require documentation to confirm accomplishment of the coordination. As
a result, there would be no evidence showing that the coordination was completed prior to
project approval.




                                                                                                   7
Date: February 28, 2007
Report No.: D-2007-0064
(Project No.: D2006-DOOOLQ-0165.000)


Management Comments on the Finding and Audit
   Response

      The U.S. Central Command did not comment on the report as written; however, the Chief
      of Staff did state that the U.S. Central Command recognizes the operational and foreign
      good-will benefits that accrue from CERP and regards its proper management as vital to
      its interest.

      The Director, Civil Military Affairs, Combined Forces Command - Afghanistan (CFC-A)
      provided the following comments on the draft report's finding.

      1. Cash Controls. The CFC-A stated that commercial off-the-shelf safes currently in
      use are secured to the structure and located in offices that are continuously manned. In
      addition, 500 pound safes were ordered more than a year ago but none had arrived in
      theater.

      2. Program Intent. The CFC-A commented on the finding for (1) the four generators
      and related equipment purchased with CERP funds, (2) the Sorkh Parsa District Center
      that we concluded did not meet the criteria for CERP project funding, and (3) a guest
      house that was constructed and furnished for visiting faculty and guests of the Ministry of
      Higher Education that we concluded did not meet the intent of CERP to benefit the
      largest number of Afghans possible. The CFC-A stated that the local public power
      infrastructure is inadequate to support the intended effort, and purchase of the four
      generators was necessary to make sufficient power available for the intended purpose of
      attracting investors to the site. While there was no certainty that all 34 sites in the project
      would be developed by investors, there is no provision under CERP rules for
      incrementally funding a project; that is, purchasing the generators only as the buildings
      are completed. CFC-A said that it needed to fully fund the project or not fund it at all.
      The CFC-A also stated that the District Center buildings constructed with CERP funds
      are strictly for Government officials' use and not for the Afghan National Police (ANP).
      In addition, in this particular case, the ANP will not use those facilities because the
      complex is to be used only as an office building and local communications hub. Lastly,
      CFC-A stated that the draft report refers to CFC-A Fragmentary Order 385, COMCFC-A
      FY06 CERP Guidance and Policy, dated October 19,2005, which contains guidance to
      "provide an immediate positive impact on the largest number of Afghans possible."
      CFC-A stated that the guest house project was approved in February 2005, 8 months
      before the cited policy was issued. At the time of project approval, the CFC-A stated that
      the guidance did not contain any reference to "largest number of Afghans possible."

      3. Nonstandard Quality Assurances and Quality Control. The CFC-A commented
      that the sporadic nature of some CERP projects make it difficult to set hard and fast dates
      to conduct inspections but that the recent linking of the CERP and CMO databases on the


                                                                                                   8
Date: February 28, 2007
Report No.: D-2007-0064
(Project No.: D2006-DOOOLQ-0165 .000)

      Digital Battle Captain (an electronic reporting mechanism within CJTF-76), both the CJ7
      and the CJ9 are able to more accurately track active projects, which should improve the
      tracking of quality assurance and quality control efforts. Additional engineers were sent
      to each provincial reconstruction team to assist in improving design and contracting as
      well as quality assurance and quality control.

      4. Standard Operating Procedures. The CFC-A stated that our reference to
      "unnecessary requirements have been issued to CERP administrators" likely refers to the
      requirement that an additional memo signed by the Task Force commander should
      accompany new project submissions that will cost more than $200,000. The CFC-A
      stated that the additional requirement will allow a Task Force Commander to know what
      his units are submitting to the CG.

      5. Documentation of Project Coordination. The CFC-A stated that no set format
      exists to document coordination with the Afghan Government ministries, but CFC-A
      stated that a new form can be designed and its use made mandatory in the next version of
      the SOP.

      Audit Response. We appreciate the comments of the Director, Civil Military Affairs -
      Combined Forces Command -Afghanistan (CFC-A) and changed the finding section of
      the final report where appropriate.

      1. Cash Controls. We do not agree that commercial off-the-shelf safes currently in use
      are secured to the structure and located in offices that are continuously manned. We
      identified that approximately 50-percent of the 16 paying agents visited had not secured
      their cash containers to structures or immoveable objects and had not stored their cash
      containers in continually manned offices. We also identified that five did not place
      physical barriers between the cash container and normal business traffic. We appreciate
      that secure safes have been on order for more than a year, but additional measures should
      be taken to comply with DoD Regulati on 7000.14 -R, "DoD Financial Management
      Regulation," volume 5, chapter 3, "Keeping and Safeguarding Public Funds."

      2. Program Intent. The CERP policies did not require CFC-A to approve, purchase,
      and install all four of the generators at one time or install none at all. The CERP policies
      also did not restrict approving additional generators as the demand for electrical power in
      the industrial complex increased. The project approval could have stipulated that funds
      were to be committed, but not obligated or expended until a need arose. In response to
      CFC-A comments on the Sorkh Parsa District Center, the approved project nomination
      form and comments by the unit Project Purchasing Officer sustantiate that the building
      will house a court and be used by district officials and Afghan security forces for security
      reasons. In addition, the stated "Measures of Effectiveness" on the project nomination
      form also described the original intent of the project as the "security forces will have a
      central location where security issues will be addressed." Therefore, we made no
      changes to our position on the purchase of the four generators. Lastly, based on CFC-A


                                                                                                 9
Date: February 28, 2007
Report No.: D-2007-0064
(Project No.: D2006-DOOOLQ-0165.000)

      comments that the project approval for the cited guesthouse for visiting faculty and
      guests of the Ministry of Higher Education was made approximately 8 months before the
      criteria cited in our draft report, we clarified our position that the project was approved
      for purposes outside the scope of the CERP. In conclusion, our position remains that the
      three projects described above did not meet the intent of the CERP.

      3. Nonstandard Quality Assurances and Quality Control. We concur with the CFC-
      A comments on the Nonstandard Quality Assurances and Quality Control that the efforts
      described will improve project tracking and improve oversight. However, the CERP in
      Afghanistan also needs to issue guidance with standardized procedures in its CERP
      directives to eliminate the inconsistent implementation and insufficient documentation of
      quality control actions.

      4. Standard Operating Procedures and Documentation of Project Coordination.
      The CFC-A comments on Standard Operating Procedures and Documentation of Project
      Coordination were applicable. As such, we have changed the wording of the final report
      to read that the guidance was "additional" instead of unnecessary. However, our original
      assertion remains that all additional guidance should be synchronized in the CERP
      fragmentary order.

      5. Documentation of Project Coordination. We concur with the CFC-A comments
      that documenting coordination with the Afghanistan Government ministries should be
      made mandatory in the next version of the SOP.


Recommendations, Management Comments and
  Audit Response
      The comments from the Director, Civil Military Affairs, Combined Forces Command-
      Afghanistan (CFC -A) on the finding section of the report did not answer each
      recommendation or identify the action planned or taken to implement the
      recommendation. With the deactivation ofCFC-A in January 2007, we redirected
      Recommendation A. to the Commanding General, Third Army/U.S. Army Central. We
      also received comments from the Acting Deputy Chief Financial Officer on behalf of the
      Under Secretary of Defense (Comptroller). Based on the comments provided, we revised
      and redirected Recommendation B. to the Commanding General, Third Army/U.S. Army
      Central. We request that the Commanding General, Third Army/U.S. Army Central
      provide comments to the findings and recommendations in this report by March 30,2007.
      All comments received are included in Attachment 1 of this report.




                                                                                               10
Date: February 28, 2007
Report No.: D-2007-0064
(Project No.: D2006-DOOOLQ-0165.000)

      A. We recommend that the Commanding General, Third ArmylU.S. Army Central:

            1. Develop and implement procedures so that projects meet the intent of the
      Commanders' Emergency Response Program to comply with DoD
      Regulation 7000.14-R "DoD Financial Management Regulation," volume 12,
      chapter 27 "Commanders' Emergency Response Program (CERP)."

             2. Develop and implement a standardized quality assurance and quality
      control program for all subordinates units and organizations administering CERP
      projects.

             3. Synchronize all subordinate units' standard operating procedures to align
      with the CFC-A Fragmentary Order 385 "COMCFC-A FY06 CERP Guidance and
      Policy," October 19, 2005.

             4. Comply with DoD Regulation 7000.14-R "DoD Financial Management
      Regulation," volume 5, chapter 3, "Keeping and Safeguarding Public Funds,"
      Section 030302.A. and 030305.A., August 1999 for safeguarding cash in a burglary
      resistant safe or vault carrying at least an Underwriters' Laboratories classification
      of Tool-Resistant Safe, TL-30 and having a Group lR combination lock.

            5. Using unit Commanders' Emergency Response Program Managers,
      provide additional training for pay agents that include at a minimum:

                    (i) procedures for safeguarding cash in accordance with DoD
              Regulation 7000.14-R "DoD Financial Management Regulation," volume 5,
              chapter 3 "Keeping and Safeguarding Public Funds," August 1999; and

                    (ii) procedures for completing the SF 44 properly, including the
              exchange rate in effect when the cash was drawn.

      B. Request a waiver from DoD Regulation 7000.14-R "DoD Financial Management
      Regulation" volume 5, chapter 3, "Keeping and Safeguarding Public Funds,"
      August 1999. The waiver should restrict the finance commanders to approving only
      a I-month extension on a case-by-case basis for each individual cash withdrawal.

      Under Secretary of Defense (Comptroller) Comments. The Deputy Chief Financial
      Officer of the USD (C) nonconcurred with the recommendation to revise the DoD
      Regulation 7000.14-R, "DoD Financial Management Regulation," volume 5, chapter 3.
      The Deputy Chief Financial Officer stated that chapter 2 of the FMR includes a provision
      for commanders to request a waiver for deviating from the DoD FMR policies, in
      exceptional circumstances, on a case-by-case basis.




                                                                                            11
Date: February 28, 2007
Report No.: D-2007-0064
 (Project No.: D2006-DOOOLQ-0165.000)

       Audit Response. We considered the Deputy Chief Financial Officer's comments and,
       given the extenuating circumstances in the Afghanistan combat environment, we revised
       the recommendation to recommend that the Commanding General, Third Army/U.S.
       Army Central request a waiver from the specified financial policy.


Action Required
We are providing this final report for review, comment, and use. We considered management
comments on a draft of this report when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The Director,
Civil Military Affairs - Combined Forces Command -Afghanistan (CFC-A) provided comments
on the draft report finding and not the recommendations. Because the Combined Force
Command - Afghanistan was deactivated in January 2007, we request that the Commanding
General, Third Army/U.S. Army Central review and provide comments on Recommendation A.
and B. that conform to the requirements of DoD Directive 7650 .3.

According to DoD Directive 7650.3, management comments should indicate concurrence or
nonconcurrence with the finding and each applicable recommendation. Comments should
describe actions taken or planned in response to agreed -upon recommendations and provide the
completion dates of the actions. State specific reasons for any nonconcurrence and propose
alternative actions, if appropriate. We request that comments be submitted by March 30,2007.

If possible, please send management comments in electronic format (Adobe Acrobat file only) to
michael. barnes@dodig.mil. Copies of the management comments must contain the actual
signature of the authorizing official. We cannot accept the / Signed / symbol in place of the
actual signature. If you arrange to send classified comments electronically, they must be sent
over the SECRET Internet Protoco l Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct your questions to me at (703)
604-8866, DSN 312-664-8866 or to Mr. Michael 1. Barnes at (703) 604-9068 or DSN 312-664-
9068. See Attachment 2 for the report distribution.


                                        By direction of the Deputy Inspector General for Auditing:



                                        Da:£k~~1
                                         Wanda A. Scott
                                         Assistant Inspector General
                                         Readiness and Operations Support




                                                                                               12
Date: February 28, 2007
Report No.: D-2007-0064
(Project No.: D2006-DOOOLQ-0165.000)

                                                                                                      Attachment 1
                                                                                                        Page 1 of6

u.s. Central Command Comments
   12/01/ 2806   1 4: 88   8138275823                          I6 OFFICE




                                 UNITED STATES CENTRAL COMMAND
                                       OFFICE OF HIE CHIEF OF STAFF
                                    7115 SOUTH BOl.lNl.MRY BOULEVAIlD
                                 MACOILL A IR FORCE B.'\Sr.~. FLORIDA 3J(;.:l 1. $ 10 1


          CCJ8                                                                            29 Nov 06

          MEMORANDUM FO.R DODIG-AUD\ F.OS\LA, ATTN: Donald Bloomer,
                            Room 550, 400 Army Navy Drive, Arlington,
                            VA 2 22 02

          SUBJECT: DOD Inspector General Draft Report, Audit of the
          Implementation of. the Commanders' Emergency Response Program
          (CERP ) in Afghanistan

          1 . We were ple a ~ed to have the opportun ity to review t h e
          sub je ct d r a f t . Under DODI 7000.14 -R, USCENTCOM plays a l i mi t e d
          role in the administration of CERP - es~entially, we recommend
          a n a l l o ca t i on of CERP funding between Iraq and Afghanistan.
          Because th is audit addresses functions and controls which fall
          under the U.S . Army's purview as the program's Ey.ecutive Agent,
          we have no comments on the report as written.

          2. We do, however, recognize the operational and foreign good-
          wi ll benefi ts t h a t acc rue from CERP, and regard its proper
          management as vital to our interests. Accordingly, we have
          forwarded the dr aft repo~t to CFC-A and CJTF-76 for their use,
          t o include developing general and specific responses to the
          report's f indings fo r s~bmission through Army Executive Agent
          channels. We ~tand ready to assist as required .

           3. HQ USCENTCOM fun ctional POC is COL Cleary, CCJB (FWD), DSN
           318 -4 32-8020. CCIG POC is Lt Col Miranda, DSN 651 -6661.




                                                          ~~
                                                          Major General, USMC




                                                                                                               13
Date: February 28, 2007
Report No.: D-2007-0064
(Project No.: D2006-DOOOLQ-0165.000)

                                                                                                                       Attachment 1
                                                                                                                         Page 2 of6
Combined Forces Command - Afghanistan
Comments


                                             DEPARTMENT OF DEFENSE
                                      COMBINED FORCES COMMAND - AFGHANISTAN
                                           OPERA TION ENDU RING FREEDOM
                                                KABUL, AF GHANISTAN
                                                    APOAE 09356
                   REPLY TO
                   ATTh'NTIO N Of :




                                                                                             28 NOV 2006
         CFC-ACMA

         MEMORAN DUM FOR DOD INSPECTOR GENERAL

         SUBJECT : Draft Report - Audit of tile Impleme ntat ion of the Commande rs' Emergency Respons e
         Program in Afgh anistan (Proj ect D200 6-DOOOLQ-0165.000)

          I . CFC-A has reviewed the Draft Report , and appreciates the thorou ghne ss of the audit, the detailed
          find ings and recommend ations , and the opportunity to rev iew and provide comment. We offer the
          follo wing manage ment comments to clarify some of the details cont ained in yo ur report.

          2. In order to facilitate cross-reference to the draft report, excerpts and page numbers are provided.

              a. Cash Controls. Cash held by 15 ofthe 16 pay agents that we visited was not safeguarded in
              accordance with DoD Regulation 7000.14-R "DoD Finan cial Manag ement Regulation, .. volum e 5,
              chap ter 3 "Keeping and Safeguarding Public Funds , " August 1999 or the CJTF-76 ,<;OP. '
              Spe cifically, we found that non e ofthe 15 pay agents who store cash did so in approved saf es. Draft
              Aud it Report (page 4)

                   • Man agement Comment: Commercial off-the-she lf safe s currently in use are secure d to the
                     structure as well as locatedin offices that are continuous ly mann ed. Five hund red pound
                     safes have been on order for over a year with none yet arriving in the ater.

               b. Program Intent. One project we review ed was approv ed prematurely g iven the current
              conditions. In this project, CFC-A purchasedfour gener ators and relat ed equip ment costing
              $ ],OOO,OOOf or an industrial park using CERP funds. Together, the generators have the capacity to
              provide electricity to 34 buildings. During the aud it, we observed that the generators would be
              f unctional on approx imately-May 4, 2006; however. only one buildin g was under construction in the
               industrial p ark. According to the unit Project Purchasin g Officer, the construction ofthe buildin gs
               in the industrial park is not a CERP project and there is no guarantee that more buildings will be
               cons tructed As a result, purchasing all four generato rs initially was unnecessary based 011 the
               current need. Draft Audit Report (page 4)

                   • Management Comm ent: This project is intended to provide the necessary infrastructure to
                     support a modern, strategically locat ed, well-managed, regulated and attr active industri al
                     park which provides a develop ed site for investors in small to medium sized enterprises. The
                     local public power infrast ructure is inadeq uate to support the intended effort , and purchase of
                     the fou r generators was necessary to ensure that sufficient power was ava ilable for the
                     intended purpose in order to attract investors to the site . While th ere was no certainty that all
                     34 sites in the proj ect would be deve loped by investors, there is no provision under CERP
                     rule s for incrementally funding a proje ct, i.e., only purchasing the generators as the buildings
                     are completed. We needed to fully fund the project or not fund it at all.




                                                                                                                                14
Date: February 28, 2007
Report No.: D-2007-0064
(ProjectNo.: D2006-DOOOLQ-0165 .000)

                                                                                                                    Attachment 1
                                                                                                                      Page 3 of6




             c. ITI?&ram Intent. Sorkh Parsa District Center ($240,000) . According to the unit Project
             Purchasing Officer, the building will house district officials, a court, and the Afghan National
             Polic e. The project is a prohibited use offunds because it is funding an operating cost ofAfghan
             securityforces. Draft Audit Report (page 4)

                  • Management Comment: District Centers are multi -usc facilities, which provide office space
                    and communications hubs for sub-national government. The District Center buildings
                    constructed with CERP funds are strictly for government officials' lise, and not for the
                    Afghan National Police. Within a District Center compound, you may find government
                    buildings may be constructed with CERP, while ANP buildings are constructed with Title 22
                    funds through the Afghan National Security Forces assistance programs. We arc very careful
                    to ensure that the funding streams are not co-mingled or used contrary to their legal purpose.
                    In this particular case, the ANP will not usc these facilities, as the complex is only to be used
                    as an office building and local communications hub.

             d. Program Intent. In addition. projects we reviewed were completed that did not appear to benefit
             the largest numb er ofAf ghans possible. as required in the CERP fragmentary order. For example:
                     A gu est house was constructed andfurnished for visiting faculty and guests ofthe Ministry of
                     Higher Education. The project disbursed $82.915. The guest house was furnished with solid
                     wood cabinetry, marble countertops, and new solid woodfurniture. This project only
                     benefits a small minority ofAfghans and is not in accordance with the CERP fragm entary
                     order to "provide an immediate positive impact on the largest number ofAfghans possible. "
                     Draft Audit Report (page 5)

                         Management COmme!lt: There is timing issue with the guidance cited in the draft. The
                         report refers to CFC -A Fragmentary Order 385 , COMCFC-A FY06 CERP Guidance and                       Change p. 6
                         Policy, dated October 19, 2005, which contains guidance to " provide an immediate
                         positive impact on the largest number of Afghans possible". This particular project was
                         an FY05 CERP project approved in February 2005 , eight months before the cited policy
                         was issued. At the time of project approval, the CERP policy guidance, CJTF76
                         FRAGO 242 to Operations Order 04-0S/FY05 CERP Guidance, February 25, 2005, did
                         not contain any refe rence to "largest number of Afghans possible".

             e. Nonstandard Quality Assurance and Ouality Control. Draft Audit Report (page 5)

                      Management Comment: While the CJTF-76 cn has had the PRT engineers entering project
                      data into the Digital Battle Captain (DBC - an electronic reporting mechanism within CJTF-
                      76) , the sporadic nature of some CERP projects makes it difficult to set hard and fast dates
                      to when QNQC inspections should be conducted. Reports -are typically filed when a project
                      milestone is reached (25% complete, ribbon cutting, etc.). By the recent linking of the
                      C ERP and CMQ databases on the DBC, both the      cn   and CJ9 are able to more accurately
                      track active projects. 111is should improve the tracking ofQNQC efforts. Additional
                      engineers have been sent to each PRT to assist in improving both design and contracting as .
                      well as QNQC.

             f. Standard Operating Procedures. The CJTF-76 SOP contained guidance that was not in                              Change p. 7
             accordance with the CERP fragmentary order because the command did not synchronize the SOP
             with CERP fragmentary order . As a result. the CJTF-76 issued unnece ssary requirements to CERP
             administrators. Draft AuditReport (page 6)




                                                                                                                             15
Date: February 28, 2007
Report No.: D-2007-0064
(Project No.: D2006-DOOOLQ-0165.000)

                                                                                                                       Attachment 1
                                                                                                                         Page 4 of6




                     Management Comment: The refer ence to ' unnecessary requirements have been issu ed to
                     CERP administrators' likely refers to the requirement that an add itio nal memo signed by the
                     TF comm ander should accompany new project submissions with a cost greater than $200K.
                     This additional requirement ensures that a TF commander has visibility on his unit 's
                     submi ssions to the CG. With some of the TF commander's giving th eir CERP manage rs
                     signature autho rity on PNFs, it is tec hnically possible for a mul timillion dollar projec t to be
                     requ est ed witho ut the 0 -6 TF commander having ever set eyes upon their own request.

             g. Documentation of Project Coordination. The C5RP fragmentary order and the CJ TF-76 S OP
             required commander to coordin ate projects with approp riate agencies for constructing or
             refurb ishing medicalf aciliti es. educational facilities, roads and bridg es. multi-story building
             construction, and stru ctural repair projects. How ever. the CERP fragm entary order and the CJTF-
             76 SOP do not requir e docum entation to confirm accomp lishm ent ofthe coordination. As a result,
             there would be no evidence showing that the coordination was completed prior to proj ect approval.
             Draft Audit Report (pages 6/7)                         .

                      Management Comm ent : GoA minis tries must be consulted for certain projects . The SO P
                      states that coordination must take place . The PNF as ks both if coordina tion is needed and if
                      it has been obtained . C urrently no set format for such coordinat ion is being ut ilized , [Note:
                      A new form can be designed and its use made mandatory in the next vers ion of the SOP .]

          3. CFC-A pac is CAPT CJ Kalb, USN, Director , Civil Military Affairs , kalbc@cfc-a.centcom .mil,
          DSN 318 -237-3443.




                                                             ~
                                                                      V1I-.
                                                                ci     LB. Captain, USN
                                                                 irector, Civil Military Affairs
                                                                Combined Forces Command - Afghanistan




                                                                                                                                16
Date: February 28, 2007
Report No.: D-2007-0064
(Project No.: D2006-DOOOLQ-0165.000)

                                                                                                      Attachment 1
                                                                                                        Page 5 of6
Under Secretary of Defense (Comptroller)
Comments

                          OFFICE OF THE UN DER S ECR ET A R Y O F DEFE N S E
                                      1 100 DEFENSE PENTAGON
                                     WASHINGTO N . DC 20301-1100


                                                  NOv ~ 8 ZUD6
     COM P T R O LLE R



           MEMORAND U M FOR PROGRAM DIRECTOR, DEFENSE FINANCIAL
                              AUDITING SERVICE, OFFICE OF THE
                              INSPECTOR GENERAL, DEPARTMENT OF
                              DEFENSE

           S UBJECT: Response to Draft Audit Report, entitled "Implementation of the
                     Commanders' Emergency Response Program (CERP) in Afghanistan,"
                     Office of the Inspector General, Department of Defense (DoD)

                  T his memorandum forwards the Under Secretary of Defense (Comptroller)
           res ponse to the subject draft DoD Inspector General report, dated November 1,2006.
           A cop y of the response is attached.

                  We appreciate the opportunity to respond to your draft audi t report. My point of
           contact is Ms. Audrey Clark, who can be contacted by telephone at (703) 695 -9437 or
           e-mail at audrey.clark @osd .mi l.



                                                   Q~"Z.--
                                                    Robe rt P. McNamara
                                                    Acting Deputy Chief Financial Officer

            Attachment:
            As stated




                                                                                                                17
Date: February 28, 2007
Report No.: D-2007-0064
(Project No.: D2006-DOOOLQ-OI65.000)

                                                                                                   Attachment 1
                                                                                                     Page 6 of6




                        DODIG DRAFT REPORT DATED NOVEMBER 1, 2006
                              D-2006-XXX (D2006-DOOOLQ-OI65.000)

                  "IMPLEMENTATlON OF THE COMMANDERS' EMERGENCY
                      RESPONSE PROGRAM (CERP) IN AFGHANISTAN"

         OFFICE OF THE UNDER SECRETARY OF DEFENSE (COMPTROLLER) (OUSD)(C)
                     COMMENTS TO THE DODIG RECOMMENDATION


        RECOMMENDAnON B: We recommend that the Under Secretary of Defense
        (Comptroller) (USD(C) revise the "Department of Defense Financial Management
        Regulation" ("DoDFMR"), Volume 5, Chapter 3, "Keeping and Safeguarding Public
        Funds:' August 1999, to allow commanders in combat zones the flexibility to grant
        extensions to the requirement that DD Form 1081 (Statement of Agent Officer's Account)
        turn-ins should be made once each month. The revision should allow an extension of up
        to 1 month and specify that finance commanders must only grant an extension on an
        as-needed basis for each individual cash draw.


        USD (C) RESPONSE: Nonconcur. The "DoDFMR" is designed to cover all of DoD.
        The purpose of the monthly balancing requirement is to detect any shortage or overage of                  hange p. 11
        funds in a timely manner, allowing irregularities to be reported immediately and
        corrective actions taken to prevent recurrence. Further, the "DoDFMR " Volume 5,
        Chapter 2, paragraph 021003, currently includes a provision for commanders to request a
        waiver for deviations from "DoDFMR" policies, based on ex.ceptional circumstances, on
        a case-by-case basis.




                                                                               Attachment




                                                                                                            18
Date: February 28, 2007
Report No.: D-2007-0064
 (Project No.: D2006-DOOOLQ-0165.000)

                                                                         Attachment 2
                                                                           Page 1 of2
Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Director, Acquisition Resources and Analysis
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
 Deputy Chief Financial Officer
 Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Army Inspector General
Auditor General, Department of the Army
Commanding General, Third Army/U.S. Army Central
Commander, Combined Joint Task Force-76

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Facilities Engineering Command
Commander, Naval Facilities Engineering Command Southwest

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Headquarters U.S. Air Force, Deputy Chief of Staff, Manpower
  and Personnel
Commander, Air Force Joint Personnel Recovery Agency
Commander, 452nd Civil Engineers, Air Force Reserve Command, March Air Reserve
Base

                                                                                   19
Date: February 28, 2007
Report No.: D-2007-0064
 (Project No.: D2006-DOOOLQ-0165.000)

                                                                      Attachment 2
                                                                        Page 2 of2

Combatant Commands
Command, Central Command
Inspector General, U.S. Joint Forces Command

Other Defense Organization
Washington Headquarters Service

Non-Defense Federal Organizations
Office of Management and Budget
Government Accountability Office

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs Committee on Oversight
  and Government Reform




                                                                                20
